Phone: 1­888­999­3936

Credit Cards
Members Also Like:
Report a Lost or Stolen Card
Using Your EMV Chip Card

Summary

Convenience, Purchasing Power, and even Rewards — Choose from a Variety of Visa® Credit Cards
Get what you need — when you need it — with a Visa® credit card from Altier. Whether you want to build credit, earn rewards, or give your budget some extra elbow room, we have
the card for you. Enjoy the added convenience and security of EMV chip technology. Choose your card today!
If you are a rewards cardholder, please register your current rewards card before you shop or redeem points.
Simply login at UChoose Rewards® and follow the instructions to create a new User ID and password. Plus, if you shop at participating UChoose Rewards® retailers in­store or online,
the points will really add up!
†Annual Percentage Rate (APR). The rate is variable and subject to change. The Prime Rate used to determine your Annual Percentage Rate (APR) is the rate published in the "Money
Rates" table of the Wall Street Journal on the 25th or next business day of the previous month. The rate may vary depending on each individual's credit history and underwriting factors.
All loans are subject to credit approval. All terms, including the Annual Percentage Rates (APRs) and fees, are subject to change at any time, for any reason, in accordance to the Credit
Card Agreement and applicable law.

Card Services Assistance
For 24/7 phone assistance CALL:
Domestic toll free line 855.609.3597
International calls 1.540.707.4030
Mail credit card payments to:
FNBO
PO Box 2711
Omaha, NE 68103­2711
Still have questions?
Send us an e­mail during business hours Monday­Thursday 8a­530p MST; Friday 8a­6p MST at eft@altiercu.org. For your security, NEVER include your account number, expiration
date or social security number in your e­mail. Please provide a phone number so we can contact you if necessary.
Click here for additional helpful resources.

Don't Just Bank.Save Money, Find Time

Invite Friends, Earn Cash

We Have ATMs All Over
Search by city name or ZIP:
[x]
Stay up­to­date on community news and current events. Join our mailing list!
Your savings federally insured to at least $250,000 and backed by the full faith and credit of the United States Government. National Credit Union Administration, a U.S. Government
Agency.

